VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                      National 

                                                                      Cemetery 

                                                                    Administration

                                                                    Audit of 
Contracting
                                                                          Practices




                                                                                    September 26, 2013
                                                                                     12-00366-339
             ACRONYMS AND ABBREVIATIONS

CY           Calendar Year
eCMS         Electronic Contract Management System
FAR          Federal Acquisition Regulation
IOP          Integrated Oversight Process
MSN          Memorial Service Network
NCA          National Cemetery Administration
OIG          Office of Inspector General
VAAR         Veterans Affairs Acquisition Regulation
VHA          Veterans Health Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                             Telephone: 1-800-488-8244 

                             Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Audit of NCA’s
                  Contracting Practices


Why We Did This Audit                           required to be reviewed         under   this
                                                mandatory process.
To improve its acquisition process, in
February 2008, the National Cemetery            These deficiencies occurred because NCA
Administration (NCA) transferred contract       did not have sufficient management staff in
responsibilities from the Veterans Health       place to lead and manage the newly
Administration to NCA’s Office of               established organization. Without sufficient
Management Contracting Service. NCA             management oversight, NCA could not
administered 574 contracts during calendar      ensure internal controls were working
year 2012 with an estimated contract value      properly and as planned when developing
of about $382 million. Previous VA Office       and awarding contracts. As a result, NCA
of Inspector General (OIG) contract audits,     cannot      ensure     awarded    contracts
reviews, and investigations in other VA         consistently met the Federal Acquisition
Administrations have identified systemic        Regulation and VA policies.
issues impacting VA’s acquisition process.
                                                What We Recommended
What We Found
                                                We     recommended    NCA      strengthen
NCA did not have effective internal controls    contracting processes and controls by
or existing controls were not followed to       enforcing the proper use of competition
ensure adequate development, award, and         requirements when appropriate, make full
administration of contracts. In a statistical   use of eCMS, and fully implement IOP
sample of 50 competitive contracts and all      reviews.
32 noncompetitive contracts, we found one
or more contract deficiencies in each of the    Agency Comments
82 contracts we reviewed. Contract files did
not always have sufficient evidence of          The Under Secretary for Memorial Affairs
acquisition planning, market research, and      agreed with our recommendations and
vendor past performance. NCA improperly         provided an appropriate action plan. We
awarded 16 of the 32 noncompetitive             consider the actions acceptable and will
contracts, as opposed to competitively bid      follow up on their implementation.
small business set-asides.

Contracting officers did not consistently
provide a complete history of contract
actions in VA’s mandatory Electronic
Contract Management System (eCMS).
Additionally, NCA did not conduct
                                                          LINDA A. HALLIDAY
Integrated Oversight Process (IOP) reviews
                                                      Assistant Inspector General
of 25 of the 36 competitive contracts and 24
                                                       for Audits and Evaluations
of the 29 noncompetitive contracts that were

                                                                                           i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and recommendations..........................................................................................................2
 

   Finding                 Contract Development, Award, and Administration Oversight Needs 

                           Strengthening.......................................................................................................2
 

                           Recommendations ...............................................................................................8
 

Appendix A                 Background .........................................................................................................9
 

Appendix B                 Scope and Methodology....................................................................................10 


Appendix C               Under Secretary for Memorial Affairs Comments ............................................ 12
 

Appendix D                 Office of Inspector General Contact and Staff Acknowledgments ...................16 


Appendix E                 Report Distribution............................................................................................17 





                                                                                                                                                 ii
                                                              Audit of NCA’s Contracting Practices



                    INTRODUCTION
Objective           We conducted this audit to assess the adequacy of contract development,
                    award, administration, and oversight processes for the National Cemetery
                    Administration’s (NCA) Office of Management’s Contracting Service.

NCA’s Mission       NCA’s mission is to honor veterans and their families with final resting
                    places in national shrines and with lasting tributes that commemorate their
                    service to our Nation.

NCA’s               NCA’s contracting function, formerly the Logistics Management Service, is
Contracting         now organized as the Contracting Service. Veterans Health Administration
Service
                    (VHA) was historically responsible for construction, grounds, and facility
                    maintenance contracts at national cemeteries, while NCA was responsible for
                    national contracts, such as those for headstones and markers. NCA began
                    assuming contracts administered and awarded by VHA in February 2008 and
                    in September 2011, NCA assumed contracting responsibilities from VHA.
                    The only service not provided by NCA Contracting Service is contracting for
                    major cemetery construction projects, which is provided by VA’s Office of
                    Construction and Facilities Management.

                    NCA’s Contracting Service is responsible for providing guidance,
                    determining availability of qualified resources, developing and issuing
                    solicitations, and awarding and administering contracts. It oversees all NCA
                    facilities in areas of contract management under the direction of the NCA
                    Head of Contracting Activity. Contracting Service is composed of the
                    Stafford, VA, and Washington, DC, offices and staff in the five Memorial
                    Service Network (MSN) offices.

Other                   	 Appendix A provides additional background information.
Information
                        	 Appendix B provides information about the audit scope and 

                           methodology. 

                        	 Appendix C provides comments from the Under Secretary for 

                           Memorial Affairs. 





VA Office of Inspector General                                                                  1
                                                             Audit of NCA’s Contracting Practices



                    RESULTS AND RECOMMENDATIONS
Finding             Contract Development, Award, and Administration
                    Oversight Needs Strengthening

                    NCA did not have effective internal controls or existing controls were not
                    followed to ensure adequate development, award, and administration of
                    contracts. In a statistical sample of 50 competitive contracts and all
                    32 noncompetitive contracts, we found one or more contract deficiencies in
                    each of the 82 contracts we reviewed.

                    	 Contract files did not always have sufficient evidence of acquisition
                       planning, market research, vendor past performance, and proper
                       justification and approval for noncompetitive contract awards.
                    	 NCA improperly awarded 16 of the 32 noncompetitive contracts instead
                       of using competitively bid small business set-asides.
                    	 Contracting officers did not consistently provide a complete history of
                       contract actions in VA’s mandatory Electronic Contract Management
                       System (eCMS).
                    	 NCA did not conduct Integrated Oversight Process (IOP) reviews of
                        25 of the 36 competitive contracts and 24 of the 29 noncompetitive
                        contracts that required review under this mandatory process.   

                    These deficiencies occurred because NCA did not have sufficient
                    management staff in place to lead and manage the newly established
                    organization. During a critical 3-year period that began before and ended
                    after VA fully transitioned contracting responsibilities from VHA, the
                    Director of Contracting and one of two supervisor positions were vacant.
                    Without sufficient management oversight, NCA could not ensure internal
                    controls were working properly and as planned when developing and
                    awarding contracts. One of the major controls that had not been fully
                    implemented was VA’s mandatory IOP. As a result, NCA could not ensure
                    awarded contracts consistently met Federal Acquisition Regulation (FAR)
                    and VA policies.

Acquisition         The acquisition process includes contract development, award, and
Process             administration. Key components of the contract development phase include
                    written acquisition plans, market research, and evaluations of past
                    performance.




VA Office of Inspector General                                                                 2
                                                               Audit of NCA’s Contracting Practices


                    Table 1 summarizes the contract deficiencies we found during our review of
                    50 sampled competitive contracts and 32 noncompetitive contracts.

Table 1
                                          Summary of Contract Deficiencies
                                                50 Competitive            32 Noncompetitive
                          Component                Contracts                  Contracts
                                              Missing     Required      Missing       Required
                      Acquisition Plans          19          24            10             10
                      Market Research            17          50            20             32
                      Past Performance            6          44            15             18
                      Source: NCA Contracting Service, eCMS, and VA OIG

Acquisitions        Acquisition planning is the process that includes developing an overall
Plans Needed        strategy for managing an acquisition. The plan must address the technical,
                    business, management, and other significant considerations that will control
                    the acquisition. Acquisition planning ensures that the requirements are
                    presented in a way that promotes full and open competition, as well as
                    identifies impediments that could delay the acquisition or lead to increased
                    cost or technical risk.

                    	 Of the 50 sampled competitive contracts, 24 had a total estimated value
                       of $1 million or more, each requiring a written acquisition plan per VA
                       policy.
                    	 Of the 24 competitive contracts, 19 had no written acquisition plan in the
                       contract files.
                    	 Of the 32 noncompetitive contracts, 10 had no written acquisition plan in
                       the contract files. The 10 noncompetitive contracts had a total estimated
                       value of $1 million or more, each requiring a written acquisition plan per
                       VA policy.

                    Without an effective acquisition plan, NCA lacked a key contracting
                    component to ensure a successful procurement.

Market              The FAR requires contracting officers to conduct market research early in
Research            the acquisition process to ensure that the government is procuring goods and
Missing or
Inadequate
                    services at reasonable costs, regardless of the status of competition. Market
                    research promotes maximum competition by collecting and analyzing
                    information to determine potential vendors capable of meeting agency needs
                    and acquiring pricing information.

                    	 For 17 of 50 sampled competitive contracts, evidence of market research
                       was inadequate or missing from the contract files.


VA Office of Inspector General                                                                   3
                                                               Audit of NCA’s Contracting Practices


                    	 Of 32 noncompetitive contracts, 20 lacked adequate evidence that
                       contracting officers conducted market research.

Past                The FAR requires past performance evaluations for acquisitions expected to
Performance         exceed the simplified acquisition threshold of $150,000. Past performance
Documentation
Needed
                    evaluations provide information, such as a contractor’s record of meeting
                    contract terms, quality of work, and integrity. A guiding principle of FAR is
                    to use contractors who have a track record of successful past performance or
                    who demonstrate a current superior ability to perform. Without conducting
                    past performance evaluations, NCA contracts are at risk for not ensuring
                    contractor compliance with contract terms.

                    	 Of the 50 sampled competitive contracts, 44 were above the simplified
                       acquisition threshold of $150,000.
                    	 Six of the 44 competitive contracts did not have documentation to
                       support contracting staff performed past performance evaluations.
                    	 Of the 18 noncompetitive contracts, 15 lacked past performance
                       evaluations, even though they were above the simplified acquisition
                       threshold.

Other Than          Competition provides the best assurance that the government has received a
Full and Open       fair and reasonable price and obtained comprehensive vendor input on the
Competition
                    technical aspects of the proposed acquisition. It encourages contractors to
                    offer best value proposals when bidding on Federal contracts, thereby
                    reducing costs and protecting the interest of taxpayers. The FAR defines
                    “best value” as the expected outcome of an acquisition that, in the
                    Government’s estimation, provides the greatest overall benefit in response to
                    a requirement.

Small Business      For 16 of the 32 contracts (valued at about $24 million), NCA improperly
Awarded             awarded them as noncompetitive contracts when they should have been
Noncompetitively
                    competitively bid small business set-asides. To set aside an acquisition for
                    competition restricted to small business, the contracting officer must have a
                    reasonable expectation that two or more small business concerns will make
                    an offer and an award will be made at a fair market price. In addition, the
                    award must be made to a qualified small business, the price must be fair and
                    reasonable, and written justification and approval must meet FAR
                    requirements.




VA Office of Inspector General                                                                   4
                                                                Audit of NCA’s Contracting Practices


                    Table 2 summarizes the deficiencies found during our review of the
                    16 improperly awarded noncompetitive contracts.

Table 2
                           Summary of Improperly Awarded Noncompetitive Contracts
                                 Component                   Missing              Required
                      Market Research                           14                    16
                      Justification for Other Than
                                                                16                    16
                      Open Competition
                      Source: NCA Contracting Service, eCMS, and VA OIG
Lack of Market      To determine if there are small businesses that would make an offer at a fair
Research            market price, the contracting officer conducts market research. This is
                    required to determine if the set-aside award will be competitive or
                    noncompetitive. The contracting officer conducts market research by
                    searching databases, such as Vendor Information Pages and the Central
                    Contracting Registration. After completing market research, the contracting
                    officer issues notices to potential small businesses.

                    For 14 of 16 noncompetitive contracts, the contract files contained no
                    evidence that contracting officers conducted market research to identify
                    eligible small businesses. Without adequate market research, NCA cannot
                    ensure that they are fostering entrepreneurship by increasing business
                    opportunities for service-disabled veteran-owned small businesses and
                    veteran-owned small businesses.

Written             The written justifications for awarding the 16 noncompetitive contracts did
Justification       not comply with FAR requirements. The FAR requires a contracting officer
Needed for
Noncompetitive
                    to approve the acquisition of goods or services through other than full and
Awards              open competition in a written justification. For contracts that require written
                    justification, the contracting officer must certify that the information is
                    complete and accurate.

                    Proper justifications for developing and awarding a noncompetitive contract
                    include the following.

                    	 A contracting officer can only identify one qualified source and no other
                       supplies or services will satisfy agency requirements
                    	 An unusual and compelling urgency
                    	 Issues of national security

                    The FAR expressly prohibits noncompetitive justifications on the basis of a
                    lack of advanced planning or concerns related to the availability of funds.
                    Following is an example of an improper justification for a noncompetitive
                    contract award.

VA Office of Inspector General                                                                    5
                                                              Audit of NCA’s Contracting Practices


                         NCA contracting officers awarded two noncompetitive contracts,
                         with a combined value of approximately $6 million. These two
                         minor construction contracts consisted of in-ground crypts and a
                         columbarium. The noncompetitive award justification provided by
                         the contracting officers stated delays in obtaining construction
                         funding during the previous 2 fiscal years. When a contracting
                         officer inappropriately awards contracts without competition, not
                         only do other eligible businesses lose the opportunity to compete,
                         NCA also may not have obtained the best value.

Contract            NCA contracting officers did not always include contract documentation in
Documentation       eCMS to provide a complete history of contract awards. We identified
Missing in
eCMS
                    missing documentation in eCMS for all 50 competitive contracts and all
                    32 noncompetitive contracts. The required contract documentation missing
                    from eCMS, included acquisition plans, market research, past performance,
                    contract reviews, and contract options. As a result, contracting supervisors
                    could not use key management features in eCMS, such as a reporting tool for
                    monitoring contracting officer workload and performance.

                    The FAR and VA acquisition policy require contract files to include
                    documentation to support key activities in contract development. While the
                    FAR allows agencies to retain contract files in any storage medium, VA
                    transitioned from a hard copy-based contracting process to eCMS in 2007.
                    In November 2010, the Office of Acquisitions, Logistics and Management
                    mandated use of eCMS for all procurement actions valued at or above
                    $3,000. Implementation of eCMS was intended to improve contract
                    processing by promoting uniformity in contracts, improving capability of
                    consolidating requirements, and providing a secure electronic archiving
                    system.

                    According to a Contracting Service supervisor, eCMS routinely stops
                    responding. This causes the system to generate a time-out message when
                    contracting staff attempt to input documentation. Due to the impact on
                    personal productivity, contracting officers maintained hard copy contract
                    files outside of eCMS. The lack of documentation in eCMS adversely
                    affects management’s ability to readily assess the quality, timeliness, and
                    administration of contracts.

Improved            The recurring systemic deficiencies associated with acquisition planning,
Oversight           contract award, and contract administration occurred because NCA did not
Needed
                    have sufficient management staff in place to lead and manage the newly
                    established organization. According to NCA officials, the Director of
                    Contracting position and one of two supervisor positions were vacant during
                    a critical 3-year period that spanned before and after VA fully transitioned
                    contracting responsibilities from VHA.



VA Office of Inspector General                                                                  6
                                                                Audit of NCA’s Contracting Practices


                    Without sufficient management oversight, NCA could not ensure internal
                    controls were working as planned and properly when developing and
                    awarding contracts. At the time of our audit, NCA’s Contracting Service’s
                    management team was in place. However, necessary oversight controls were
                    not sufficiently adequate. Among the major controls that had not been fully
                    implemented was the Integrated Oversight Process (IOP).

VA’s                In June 2009, VA established the IOP. The IOP reviews replaced the
Integrated          traditional technical reviews of contracts required by the Veterans Affairs
Oversight
Process
                    Acquisition Regulation (VAAR). The IOP requires each contracting activity
                    to commit the time and resources needed to conduct contract reviews. It also
                    holds contracting officers responsible for building quality into the acquisition
                    process and preventing violations of laws and regulations. Depending on the
                    type and estimated value of the contract and what is being procured, the
                    process requires a peer review or second-level supervisor, Contract Review
                    Team, and Contract Review Board to evaluate the contract.

                    The IOP also requires legal reviews for certain contracts to prevent violations
                    of law and/or regulations and to minimize risks associated with protests and
                    contract claims. Contract Review Teams and Contract Review Boards are
                    composed of acquisition and legal professionals to ensure that acquisitions
                    comply with FAR and VAAR. After VA established the IOP in June 2009,
                    NCA did not implement controls to ensure required reviews were conducted.

                    	 Thirty-six of the 50 competitive contracts sampled required an IOP
                       review.
                    	 NCA did not conduct required IOP reviews on 25 of the 36 competitive
                       contracts.
                    	 Twenty-nine of the 32 noncompetitive contracts required an IOP review.
                    	 NCA did not conduct required IOP reviews on 24 of 29 noncompetitive
                       contracts.

                    The IOP review process was intended to strengthen acquisition operations
                    and improve the quality of awarded contracts. Had NCA acquisition
                    management ensured required IOP contract reviews were conducted, most of
                    the identified issues could have been prevented. Without these reviews,
                    NCA could not ensure it received the best possible value on the goods and
                    services acquired through these contracts.

                    NCA needs to strengthen management oversight during all contracting
                    phases and ensure the IOP is fully implemented. Without sufficient
                    management oversight, NCA cannot ensure contracting practices comply
                    with applicable laws and regulations and cemetery needs are met in the most
                    efficient and effective manner. In our opinion, NCA could have identified
                    and prevented many of the deficiencies if the required IOP contract reviews
                    were conducted and appropriate corrective actions were taken.

VA Office of Inspector General                                                                    7
                                                               Audit of NCA’s Contracting Practices


Conclusion          We found one or more contract deficiencies in each of the 82 contracts we
                    reviewed.     These deficiencies in contract development, award, and,
                    administration increase the risk of VA paying for goods and services it did
                    not receive. To ensure the government receives the best value from their
                    procurements and to protect the interests of taxpayers, NCA needs to
                    promote competition. To ensure NCA contracting activities meet acquisition
                    laws, regulations, and VA policy, NCA acquisition management must
                    provide the leadership and guidance necessary to strengthen controls, such as
                    making full use of eCMS and conducting IOP reviews.

                    Recommendations

                    1.	 We recommended the Under Secretary for Memorial Affairs ensure the
                        Contracting Service establish procedures to ensure contracts are properly
                        awarded according to the Federal Acquisition Regulation.
                    2.	 We recommended the Under Secretary for Memorial Affairs ensure
                        acquisition plans, market research, and evaluations of past performance
                        are properly documented in the contract files.
                    3.	 We recommended the Under Secretary for Memorial Affairs ensure
                        Contracting Service establish procedures to ensure competitive
                        procurement methods are used to the maximum extent possible.
                    4.	 We recommended the Under Secretary for Memorial Affairs coordinate
                        with the Office of Acquisition, Logistics, and Management to resolve
                        Electronic Contract Management System issues to ensure system
                        capabilities are fully used.
                    5.	 We recommended the Under Secretary for Memorial Affairs ensure
                        Contracting Service fully implements the Integrated Oversight Process
                        and ensure required contract reviews are conducted before awarding
                        contracts.

Management          The Under Secretary for Memorial Affairs concurred with our
Comments            recommendations and plans on taking corrective actions during the first
and OIG
Response
                    quarter of FY 2014. The Under Secretary described control improvements
                    which should result in obtaining best value for contracted goods and services
                    in accordance with the Federal Acquisition Regulations.

                    We will monitor implementation of these actions and will close the
                    recommendations when we receive sufficient evidence demonstrating NCA’s
                    progress in addressing the issues identified. Appendix C contains the full
                    text of the Under Secretary’s comments.




VA Office of Inspector General                                                                   8
                                                               Audit of NCA’s Contracting Practices


Appendix A          Background

Role of NCA         NCA’s mission is to honor veterans and their families with final resting
                    places in national shrines and with lasting tributes that commemorate their
                    service to our Nation.       NCA’s responsibilities include maintaining
                    approximately 3.2 million gravesites at 131 national cemeteries in 39 states
                    and Puerto Rico. In FY 2012, NCA conducted over 118,000 interments and
                    processed nearly 355,000 applications for headstones and markers for
                    placement in cemeteries.       According to NCA, 574 contracts were
                    administered during calendar year (CY) 2012 with an estimated contract
                    value of about $382 million.

                    The Under Secretary stated in his March 2012 congressional testimony that
                    NCA is currently experiencing the largest expansion of the National
                    Cemetery System since the Civil War. NCA has built 18 new National
                    cemeteries from 1992 through 2010. NCA is in the land-acquisition and
                    planning phase for five additional cemeteries.

Memorial            Memorial Service Networks (MSNs) provide direction, operational
Service             oversight, and engineering assistance to the cemeteries located in their
Networks
                    geographic areas. NCA’s field structure is geographically organized into
                    the following five MSN office locations.

                       Philadelphia, PA
                       Atlanta, GA
                       Denver, CO
                       Indianapolis, IN
                       Oakland, CA

                    NCA’s Contracting Service office in Stafford, VA, provides the following
                    contracting support.
                       Headstone and marker program
                       Raising, realigning, and cleaning of headstones and markers
                       Grave liner and equipment purchases
                       Grounds maintenance and janitorial contracts

                    NCA’s Contracting Service office in Washington, DC, provides contract
                    support to NCA’s Design and Construction Service, which is responsible for
                    NCA’s National cemeteries’ minor construction projects.

Prior Audit         Previous VA Office of Inspector General (OIG) contract audits, reviews, and
and Reviews         investigations in other VA Administrations have identified systemic issues
                    impacting VA’s acquisition process.

VA Office of Inspector General                                                                   9
                                                               Audit of NCA’s Contracting Practices


Appendix B          Scope and Methodology

Scope               We conducted our audit work from April 2012 through August 2013. The
                    audit scope included a universe of 524 contracts, with an estimated value of
                    about $424 million active during CY 2011. Our sample included 50 active
                    competitive contracts totaling nearly $114 million and 32 noncompetitive
                    contracts totaling approximately $35 million.

Methodology         We interviewed NCA management and staff to obtain an understanding of
                    NCA’s contracting procedures.         We reviewed a random sample of
                    50 national contracts and all 32 contracts reported in eCMS to be sole-source
                    contracts active during CY 2011. To assess the quality of NCA's review
                    procedures, we performed the following steps.

                    	 Reviewed the applicable laws, regulations, and policies and procedures to
                       gain an understanding of the NCA Contracting Service activity
                    	 Interviewed NCA VA Central Office and Contracting Service
                       management and staff to gain an understanding of the NCA Contracting
                       Service internal control environment
                    	 Reviewed hard copy contract and electronic contract files in the eCMS to
                       assess acquisition planning, awarding, and monitoring of contracts

                    To determine if NCA provided sufficient management oversight to
                    adequately develop, award, and administer contracts that complied with FAR
                    and VAAR, we conducted the following.

                    	 Reviewed 50 statistically sampled competitive contracts active during
                       CY 2011, which included supporting documents in both hard copy and
                       electronic contract files
                    	 Reviewed all 32 noncompetitive contracts active during CY 2011, which
                       included supporting documents in both hard copy and electronic contract
                       files
                    	 Interviewed NCA’s Under Secretary for Management, NCA’s Director of
                       Contracting Service, and NCA’s Contracting Service Chiefs from the
                       Stafford, VA, and Washington, DC, offices

                    In addition, we analyzed the management staffing levels for
                    FY 2009 through FY 2012 to assess its impact on the contract development,
                    award, administration, and oversight processes. We also evaluated one
                    contract terminated during FY 2012 to determine whether the termination
                    was executed in accordance with FAR and VAAR. Our review showed the
                    contract was properly terminated.

Fraud Assessment The audit team assessed the risk that fraud, violations of legal and regulatory
                    requirements, and abuse could occur during this audit.       The audit team

VA Office of Inspector General                                                                  10
                                                                Audit of NCA’s Contracting Practices


                    exercised due diligence in staying alert to any fraud indicators by taking
                    actions, such as:

                    	 Soliciting the OIG’s Office of Investigations for indicators particular to
                       contract fraud
                    	 Reviewing contract documents to ensure the Excluded Parties List was
                       checked for debarred vendors before contracts were awarded
                    	 Reviewing contract documents for family members or former VA
                       employees employed by one of the contract vendors
                    	 Reviewing for contracts awarded to ineligible set-aside contractors

                    We did not identify any instances of fraud during this audit.

Data Reliability    We determined that the reliability of computer-processed data in eCMS was
                    sufficient to select the statistical sample. We relied on supporting
                    documentation in contract files and only reviewed eCMS
                    computer-processed data to a limited extent. We considered that information
                    reliable to meet the audit objective.
Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                   11
                                                                         Audit of NCA’s Contracting Practices


Appendix C              Under Secretary for Memorial Affairs Comments



                Department of                                     Memorandum
                Veterans Affairs

          Date:     September 20, 2013

          From:	    Under Secretary for Memorial Affairs (40)

           Subj:	   Draft Report, Audit of National Cemetery Administration’s Contracting Practices
                    (Project Number 2012-00366-R4-0029)

            To:     Assistant Inspector General for Audits and Evaluations (52)


                    The National Cemetery Administration (NCA) submits the attached report
                    concerning progress in implementing recommendations made in the Office of
                    Inspector General (OIG) draft report, Audit of NCA’s Contracting Practices, August
                    29, 2013. Our point of contact is Mr. Thomas Muir, Deputy Under Secretary for
                    Management. You may contact him at (202) 461-6234.




                    Attachment




VA Office of Inspector General                                                                            12
                                                                   Audit of NCA’s Contracting Practices


                                                                                             Attachment


      Draft report, Audit of National Cemetery Administration’s Contracting Practices

                             Project Number 2012-00366-R4-0029




                                 We recommend the Under Secretary for Memorial Affairs
                                 ensure the Contracting Service establish procedures to
  Recommendation 1:              ensure contracts are properly awarded according to the
                                 Federal Acquisition Regulations.


                                 Please provide your written comments to our report. In
                                 particular, state whether you concur or do not concur with the
                                 finding, please provide a specific explanation including
                                 supporting documentation of your decision. If you concur
  OIG Comment:
                                 with the finding but do not concur with the recommendations,
                                 please provide alternative corrective action. If you concur
                                 with the recommendations, please provide an implementation
                                 plan with target completion dates.


                                 Concur:

                                 In response to the OIG recommendation, Contacting Service
                                 will develop a Memorandum for the Record to ensure that the
                                 Contacting staff follows the procedures in accordance with
                                 the Federal Acquisition Regulation (FAR). A Memorandum
                                 for Record will be added to the contract file stating that the
  VA Response:
                                 Contract Specialist/Officer has ensured that they properly
                                 awarded the contract in accordance to the FAR. The
                                 Memorandum for Record will be signed by the awarding
                                 Contracting Officer and reviewed by the Chief, Contracting
                                 Service.

                                 Target Completion Date: October 31, 2013


                                 We recommend the Under Secretary for Memorial Affairs
                                 ensure acquisition plans, market research, and evaluations of
  Recommendation 2
                                 past performance are properly documented in the contract
                                 files.


                                 Please provide your written comments to our report. In
                                 particular, state whether you concur or do not concur with the
                                 finding, please provide a specific explanation including
                                 supporting documentation of your decision. If you concur
  OIG Comment:
                                 with the finding but do not concur with the recommendations,
                                 please provide alternative corrective action. If you concur
                                 with the recommendations, please provide an implementation
                                 plan with target completion dates.


VA Office of Inspector General                                                                      13
                                                                    Audit of NCA’s Contracting Practices



                                 Concur:

                                 In response to the OIG recommendation, standard sample
                                 documents are being developed to ensure acquisition plans,
                                 market research, and evaluations of past performance are
                                 properly documented in the contract files. The Chief,
                                 Contracting Service will review the contract files monthly for
  NCA Response:                  compliance to ensure that the acquisition plans, market
                                 research, and past performance evaluations are properly
                                 documented in the contract file and placed in the eCMS
                                 briefcase. NCA will have the eCMS Coordinator generate a
                                 monthly audit briefcase report on all new contracts for
                                 documentation accuracy.

                                 Target Completion Date: October 31, 2013


                                 We recommend the Under Secretary for Memorial Affairs
                                 ensure Contracting Service establish procedures to ensure
  Recommendation 3:
                                 competitive procurement methods are used to the maximum
                                 extent possible.


                                 Please provide your written comments to our report. In
                                 particular, state whether you concur or do not concur with the
                                 finding, please provide a specific explanation including
                                 supporting documentation of your decision. If you concur
  OIG Comment:
                                 with the finding but do not concur with the recommendations,
                                 please provide alternative corrective action. If you concur
                                 with the recommendations, please provide an implementation
                                 plan with target completion dates.


                                 Concur:

                                 In response to the OIG recommendation, NCA will develop a
                                 Memorandum for the Record stating that the Contracting
                                 Officer has ensured that competition to the maximum extent
  NCA Response:
                                 practicable has been conducted. Any action not competed
                                 shall be reviewed by the Director, Contracting Service and
                                 the NCA Head of Contracting Activity for approval.

                                 Target Completion Date: October 31, 2013


                                 We recommend the Under Secretary for Memorial Affairs
                                 coordinate with the Office of Acquisition, Logistics, and
  Recommendation 4:
                                 Management to resolve Electronic Contract Management
                                 System issues to ensure system capabilities are fully used.




VA Office of Inspector General                                                                       14
                                                                    Audit of NCA’s Contracting Practices



                                 Please provide your written comments to our report. In
                                 particular, state whether you concur or do not concur with the
                                 finding, please provide a specific explanation including
                                 supporting documentation of your decision. If you concur
  OIG Comment:
                                 with the finding but do not concur with the recommendations,
                                 please provide alternative corrective action. If you concur
                                 with the recommendations, please provide an implementation
                                 plan with target completion dates.


                                 Concur:

                                 In response to the OIG recommendation, Under Secretary for
                                 Memorial Affairs and the Deputy Under Secretary for
                                 Management will schedule a meeting with Glenn Haggstrom,
  NCA Response:                  Office Acquisition, Logistics, and Construction, to resolve
                                 Electronic Contact Management System issues that NCA is
                                 currently experiencing to ensure that system capabilities can
                                 be fully used.

                                 Target Completion Date: November 29, 2013.


                                 We Recommend the Under Secretary for Memorial Affairs
                                 ensure Contracting Service fully implements the Integrated
  Recommendation 5:
                                 Oversight Process and ensure required contract reviews are
                                 conducted before awarding contracts.


                                 Please provide your written comments to our report. In
                                 particular, state whether you concur or do not concur with the
                                 finding, please provide a specific explanation including
                                 supporting documentation of your decision. If you concur
  OIG Comment:
                                 with the finding but do not concur with the recommendations,
                                 please provide alternative corrective action. If you concur
                                 with the recommendations, please provide an implementation
                                 plan with target completion dates.


                                 Concur:

                                 In response to the OIG recommendation, NCA will continue to
                                 implement the requirements of the Office of Acquisition,
                                 Logistics and Construction Information Letter (IL) 001AL-09-
                                 02, Integrated Oversight Process (IOP) June 19, 2009 as the
                                 standard for contract reviews. All appropriate contracting staff
  NCA Response:
                                 will be given a copy of the IL to review and sign off stating
                                 that they are committed to following the procedures set forth
                                 in the IL. For actions Other than Full and Open Competition
                                 approval will be required by the Director of Contracting
                                 Service and the Head of Contracting Activity.

                                 Target Completion Date: October 31, 2013



VA Office of Inspector General                                                                       15
                                                      Audit of NCA’s Contracting Practices


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments    Cherie E. Palmer, Director
                                         Matthew Byrne
                                         Larry Chinn
                                         Joseph DeAntonis
                                         Dana Fuller
                                         Kevin Gibbons
                                         Lee Giesbrecht
                                         Raymond Jurkiewicz
                                         Cynnde Nielsen
                                         Nelvy Viguera Butler
                                         Ora Young




VA Office of Inspector General                                                         16
                                                               Audit of NCA's Contracting Practices


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                  17
